XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-7662
Facsimile: (916) 324-2960
E-Mail: Melissa.Lipon@doj.ca.gov
State Bar No. 217719

August 5, 2020
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Johnson v. State of California
Case No. 20-5085, Capital Case
Request for Extension of Time

Dear Clerk Harris:
The petition for a writ of certiorari in this case was filed on July 10, 2020. The response to the
petition is currently due on August 17, 2020. Pursuant to Rule 30.4, respondent respectfully
requests that the time for filing a response to the petition be extended by thirty days, up to and
including Wednesday, September 16, 2020. An extension of time would enable respondent to
prepare a response that is more helpful to the Court. Counsel for petitioner does not oppose the
extension request.
Sincerely,
/S/ Melissa Lipon
MELISSA LIPON
Deputy Attorney General
Attorney for Respondent
For
MJL:bt
SA2020302267
34280201.docx

XAVIER BECERRA
Attorney General of the State of California

